fT

C@OCKLE

; E-Mail Address:
L ega 1 Br le fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

ROGERS COUNTY BOARD OF TAX ROLL
CORRECTIONS, a political subdivision; CATHY
PINKERTON BAKER, Rogers County Treasurer,

in her official capacity; and SCOTT MARSH,

Rogers County Assessor, in his official capacity,
Petitioners,
Vv.
VIDEO GAMING TECHNOLOGIES, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8730 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Konse. “ Chk
A RENEE J. GOSS ). Deed rater “
My Comm. Exp. September 5, 2023 39784
Notary Public

Affiant

 
